No. 19-1021
In the Supreme Court of the United States
_____________
MICAH JESSOP & BRITTAN ASHJIAN,
Petitioners
v.
CITY OF FRESNO, DERIK KUMAGAI,
CURT CHASTAIN & TOMAS CANTU,
Respondents.
_____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
_____________
RESPONDENTS’ OBJECTION TO MOTION FOR LEAVE
TO FILE AND BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
_____________
Daniel P. Barer (SBN 150812)
Pollak, Vida & Barer
11500 W. Olympic Blvd., Suite 400
Los Angeles, California 90064
(310) 551-3400
daniel@pollakvida.com
Attorney for Defendants and Respondents
CITY OF FRESNO, DERIK KUMAGAI,
CURT CHASTAIN & TOMAS CANTU

1

RESPONDENTS’ OBJECTION TO MOTION FOR LEAVE
TO FILE AND BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS

TO THE HONORABLE COURT:

In accordance with Supreme Court Rule 37.5, Defendants and Respondents
City of Fresno, Curt Chastain, Tomas Cantu, and Derik Kumagai object to The New
Civil Liberties Alliance’s motion to file an amicus curiae brief in this matter, on the
ground that the Alliance’s proposed amicus brief includes misstates the record on
appeal. The Alliance asserts, as a fact, that after executing their search warrant,
the defendant police officers entered plaintiff Micah Jessop’s house without a
warrant, and seized or stole Jessop’s rare coin collection. (Proposed Brief, pp. 5, 15.)
The City and defendant officers categorically deny that they stole anything. But
even taking the facts set forth by plaintiffs as true for purposes of qualified
immunity analysis, nothing in the record supports the “fact” the Alliance asserts.

On page 5 of the proposed amicus brief, the Alliance writes:

In fact, some of the Respondents returned to the site of the “search” a
second time to steal more of the Petitioners’ property.

2

The proposed brief does not cite any source for this “fact.”

On page 15 of the proposed brief, at n. 2, the Alliance writes:

It is worth noting that the police officers’ theft of Jessop’s rare
coin collection did not occur when the police executed the search
warrant. Pet. for Writ of Cert. at 6. The police did not seize the
rare coin collection until later that day during a second visit,
without applying for a new search warrant. Ibid.

Page 6 of the Petition for Writ of Certiorari does not support the Alliance’s
statement of facts. It does not state that police officers seized Jessop’s rare coin
collection in an unauthorized “second visit” to the house without a search warrant.

Page 6 instead recounts Kristine Jessop’s declaration at 2ER:43-44. In that
declaration, Kristine Jessop declares that during the period where the officers were
at the Jessop residence executing the search warrant (but, she believes, “the officers
were basically done with the search of our home”), one of the officers, Detective
Kumagai entered the rear of the house alone, and then returned after several
minutes. (2ER:43-44.) The rear was where the bedrooms were located. (2ER:44.)
The declaration then states that after the officers left, plaintiff Micah Jessop could
not find the rare coin collection kept in a closet in the master bedroom. (2ER:44.)

3

Amicus Curiae briefs assist the Court only if they correctly state the facts.
An amicus brief that states “facts” that contradict the record does not help the
Court.

Respondents therefore object to the proposed brief, and respectfully ask the
Court to deny the Alliance leave to file the brief.

Respectfully submitted,

DATED: March 17, 2020
POLLAK, VIDA & BARER
By: s/Daniel P. Barer
Daniel P. Barer
Counsel for Defendants and Respondents
CITY OF FRESNO, DERIK KUMAGAI,
CURT CHASTAIN & TOMAS CANTU

